APPENDIX

TABLE OF CONTENTS

Appendix A:

Court of appeals opinion,
Apr. 16, 2019 .................................................... 1a

Appendix B:

District court order,
Apr. 20, 2017 .................................................. 14a

Appendix C:

Court of appeals order
denying rehearing en banc,
July 23, 2019 .................................................. 54a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No. 17-5782/5783

JAMES WALKER,
Plaintiff-Appellee
v.
UNITED STATES OF AMERICA,
Defendant-Appellant

Filed: April 16, 2019

Before: ROGERS, STRANCH, and THAPAR, Circuit
Judges.
OPINION
PER CURIAM.
James Walker was found guilty of being a felon in possession of ammunition. Because the district court found
that he had previously been convicted of three violent felonies, he was subject to a mandatory sentence of at least
15 years’ imprisonment under the Armed Career Criminal Act (ACCA). Following the decision in Samuel John-

(1a)

2a
son v. United States, 135 S. Ct. 2551, Walker filed a habeas petition arguing that his prior convictions no longer
qualify as violent felonies under the ACCA. The district
court held that only two of Walker’s prior convictions constituted violent felonies, vacated his sentence, and resentenced him to 88 months’ imprisonment. We REVERSE.
I.

BACKGROUND

After a jury trial, Walker was found guilty of being a
felon in possession of ammunition, in violation of 18 U.S.C.
§ 922(g)(1). The district court found that he was subject to
an ACCA enhancement based on five prior felony convictions: (1) a 1974 Tennessee conviction for robbery with a
deadly weapon; (2) a 1982 Texas conviction for robbery;
(3) a 1983 Tennessee conviction for attempted third-degree burglary; (4) a 1986 Tennessee conviction for burglary; and (5) a 1994 Tennessee conviction for robbery.
Because he had three prior convictions for violent felonies, Walker was required to be sentenced to no less than
15 years of imprisonment. 18 U.S.C. § 924(e). Absent
three qualifying convictions, his maximum sentence would
have been 10 years. 18 U.S.C. § 924(a)(2). The court sentenced Walker to the mandatory minimum of 15 years’ imprisonment. We affirmed his conviction and sentence.
United States v. Walker, 506 F. App’x 482 (6th Cir. 2012).
In January 2014, Walker timely filed a pro se habeas
petition under 28 U.S.C. § 2255, raising several claims
that are not at issue here. After the Supreme Court held
that the ACCA’s “residual clause” was void for vagueness
in Samuel Johnson, 135 S. Ct. at 2557, Walker moved to
amend this petition to include a claim that he no longer
qualified for a sentencing enhancement under the ACCA.
The district court allowed him to amend his petition and
appointed counsel. The Government conceded that, with
the invalidation of the residual clause, Walker’s conviction

3a
for attempted third-degree burglary is no longer a violent
felony under the ACCA, but argued that his four other
convictions still qualify as violent felonies. The court determined that Walker’s two Tennessee robbery convictions are violent felonies but Walker’s convictions for
Texas robbery and Tennessee burglary are not. The court
explained that Tennessee’s third-degree burglary statute
sweeps more broadly than generic burglary and that
Texas robbery could be committed by recklessly causing
bodily injury to another, an insufficient mental state for
an offense to be considered a violent felony. Accordingly,
the district court vacated Walker’s sentence and resentenced him to 88 months’ imprisonment.
On appeal, Walker argues that the district court erred
by holding that his Tennessee robbery convictions were
violent felonies under the ACCA. The Government initially argued that the district court erred in holding that
Walker’s Tennessee burglary conviction and Texas robbery conviction were not violent felonies. After briefing
was concluded, however, this court held that the third-degree burglary statute under which Walker was convicted
is not a violent felony. Cradler v. United States, 891 F.3d
659, 671 (6th Cir. 2018). The Government has conceded
the issue of Tennessee burglary in light of this binding
precedent, but continues to argue that Texas robbery is a
violent felony under the ACCA.
II. ANALYSIS

This court reviews de novo a district court’s determination regarding whether a prior conviction constitutes a
‘violent felony’ under the ACCA.” Id. at 664 (quoting
Braden v. United States, 817 F.3d 926, 930 (6th Cir.
2016)).
To determine whether a prior conviction counts as a
“violent felony” under the ACCA, we “use the categorical

4a
approach.” United States v. Covington, 738 F.3d 759, 762
(6th Cir. 2014) (quotation marks omitted). This involves
looking not at the facts underlying the conviction but rather at “the elements of a defendant’s prior conviction[].”
Id. (citing Descamps v. United States, 570 U.S. 254, 261
(2013)). Once we determine the elements of conviction, we
then examine whether this offense necessarily describes
a violent felony. Id. at 763. Since Samuel Johnson invalidated the ACCA’s residual clause, a crime is a violent felony if (1) the offense “has as an element ‘the use, attempted use, or threatened use of physical force against
the person of another,’ ” id. at 763 (quoting 18 U.S.C.
§ 924(e)(2)(B)(i)), or (2) its elements “are equivalent to
the elements of the generic definition of one of the offenses enumerated in . . . [18 U.S.C. §] 924(e)(2)(B)(ii)—
burglary, arson, extortion, or a crime involving the use of
explosives,” id. at 764. We often refer to the first clause as
the “use-of-force clause” and to the second as the “enumerated-offenses clause.” See, e.g., Raines v. United
States, 898 F.3d 680, 685 (6th Cir. 2018).
Whether a prior conviction qualifies as a violent felony
under either prong requires review of the minimum conduct necessary for conviction. “Because we examine what
the state conviction necessarily involved, not the facts underlying the case, we must presume that the conviction
‘rested upon [nothing] more than the least of th[e] acts’
criminalized, and then determine whether even those acts
are encompassed by the generic federal offense.”
Moncrieffe v. Holder, 569 U.S. 184, 190-91 (2013) (alterations in original) (quoting Curtis Johnson v. United
States, 559 U.S. 133, 137 (2010)). In determining the minimum conduct criminalized by a state statute, federal
courts are bound by state courts’ interpretation of the elements of the offense. Curtis Johnson, 559 U.S. at 138.
Whether a state statute involves the use of “physical

5a
force” within the meaning of § 924(e)(2)(B)(i), however, “is
a question of federal law, not state law.” Id.
“[T]here are two steps in applying the categorical approach to determine whether a prior conviction constitutes . . . a violent felony under the ACCA. First, a court
must ask whether the statute at issue is divisible by determining if the statute lists ‘alternative elements.’ ” Covington, 738 F.3d at 763 (quoting Descamps, 570 U.S. at
278). If the answer to this question is affirmative, courts
then use a “modified categorical approach” to determine
the elements of conviction. Id. at 762-63. But we “use the
modified approach only to determine which alternative element in a divisible statute formed the basis of the defendant’s conviction.” Descamps, 570 U.S. at 278. We do not
use it “to substitute . . . a facts-based inquiry for [the] elements-based one” required by the categorical approach.
Id. “In other words, the modified approach serves—and
serves solely—as a tool to identify the elements of the
crime of conviction when a statute’s disjunctive phrasing
renders one (or more) of them opaque.” Mathis v. United
States, 136 S. Ct. 2243, 2253 (2016).
A. Tennessee Burglary

As the Government concedes, Walker’s 1986 Tennessee conviction for third-degree burglary is not a violent
felony under the ACCA. In Cradler, we overturned our
contrary prior precedent in light of Mathis, concluding
that Tennessee third-degree burglary does not qualify as
a violent felony under the ACCA’s enumerated-offenses
clause “[b]ecause the Tennessee Supreme Court has included offense conduct in its definition of third-degree
burglary that lies outside the narrower definition of generic burglary.” 891 F.3d at 671; see also United States v.
Mitchell, 905 F.3d 991, 993 (6th Cir. 2018) (applying Cra-

6a
dler to hold that a conviction for “the 1982 version of [Tennessee] third-degree burglary . . . is not a ‘violent’ felony
under the ACCA”).
B. Tennessee Robbery

On the other hand, as the Government argues, our
binding precedent dictates that Walker’s 1974 Tennessee
conviction for robbery with a deadly weapon and his 1994
Tennessee conviction for robbery are violent felonies under the ACCA. In the past five years, this court has thrice
held that Tennessee robbery is categorically a violent felony. United States v. Southers, 866 F.3d 364, 367-69 (6th
Cir. 2017); United States v. Taylor, 800 F.3d 701, 718-19
& n.5 (6th Cir. 2015); United States v. Mitchell, 743 F.3d
1054, 1059-60 (6th Cir. 2014).
In sum, Walker’s two Tennessee robbery convictions
are categorically violent felonies and the Government has
conceded that Walker’s Tennessee convictions for thirddegree burglary and attempted third-degree burglary are
not violent felonies. Thus, whether Walker is subject to a
mandatory ACCA sentencing enhancement for conviction
of three violent felonies depends on whether his 1982
Texas conviction for robbery is a violent felony. As explained below, it is.
C. Texas Robbery

At the time of Walker’s 1982 conviction, Texas defined
the crime of robbery as follows.
(a) A person commits an offense if, in the course of
committing theft as defined in Chapter 31 of this code
and with intent to obtain or maintain control of the
property, he:
(1) intentionally, knowingly, or recklessly causes bodily injury to another; or

7a
(2) intentionally or knowingly threatens or places another in fear of imminent bodily injury or death.
Tex. Penal Code § 29.02 (1974). The Government argues
that this statute is divisible into (a)(1) and (a)(2) but concedes on appeal that each subsection is not further divisible. Walker takes no position on divisibility but argues
that, regardless of whether the statute is divisible, “neither clause satisfies the use of force definition of the
ACCA.”
We agree with the district court’s well-reasoned opinion that (a)(1) and (a)(2) delineate distinct crimes, with different elements, but the statute is not further divisible.
These two subsections list alternative elements and thus
are separate crimes, but the mental states described in
each subsection are merely alternative means of carrying
out these crimes. See Mathis, 136 S. Ct. at 2256; GomezPerez v. Lynch, 829 F.3d 323, 326-28 (5th Cir. 2016) (holding, with regard to a Texas assault statute that criminalizes “intentionally, knowingly, or recklessly causin[ing]
bodily injury to another,” that these “three culpable mental states” are merely “ ‘conceptually equivalent’ means of
satisfying the intent element”). We therefore look to the
Shepard documents for the limited purpose of determining under which subsection Walker was convicted.
Mathis, 136 S. Ct. at 2249. Because Walker was indicted
for “intentionally caus[ing] bodily injury” and later
pleaded guilty to this charge, he was convicted under
§ 29.02(a)(1) of intentionally, knowingly, or recklessly
causing bodily injury to another in the course of committing theft. Bodily injury was—and still is—defined under
Texas law as “physical pain, illness, or any impairment of
physical condition.” Tex. Penal Code § 1.07 (1974).
Given that § 29.02(a)(1) does not match any of the
crimes listed in the ACCA’s enumerated-offenses clause,
it is a violent felony only if it falls within the ACCA’s use-

8a
of-force clause—i.e., if it “has as an element the use, attempted use, or threatened use of physical force against
the person of another.” 18 U.S.C. § 924(e)(2)(B)(i). The Supreme Court has instructed that, in this context, “the
phrase ‘physical force’ means violent force—that is, force
capable of causing physical pain or injury to another person. . . . [T]he word ‘violent’ in § 924(e)(2)(B) connotes a
substantial degree of force.” Curtis Johnson, 559 U.S. at
140 (citations omitted). Thus, convictions under statutes
that criminalize “any unwanted physical touching”—
“such as a ‘tap on the shoulder without consent’ ”—are not
violent felonies under the ACCA’s use-of-force clause. Id.
at 138, 145 (alterations and citations omitted). On the
other hand, the Supreme Court recently held that “robbery offenses that require the criminal to overcome the
victim’s resistance” are categorically violent felonies under the ACCA’s force clause. Stokeling v. United States,
139 S. Ct. 544, 550 (2019). The Court also suggested that
“conduct that leads to relatively minor forms of injury—
such as a ‘cut, abrasion or bruise’—‘necessitate[s]’ the use
of ‘violent force’ ” because even such minor force rises
above the level of “mere offensive touching” and is “ ‘capable of causing physical pain or injury.’ ” Id. at 554 (alterations in original) (quoting United States v. Castleman, 572 U.S. 157, 170 (2014), and then id. at 182
(Scalia, J., concurring)).
The district court held that § 29.02(a)(1) was not a violent felony because someone could be convicted under this
subsection for recklessly causing physical injury. In so
holding, the court relied on our decision in United States
v. McMurray, where we concluded that “the ‘use of physical force’ clause of the ACCA . . . requires more than reckless conduct.” 653 F.3d 367, 375 (6th Cir. 2011). After the
district court handed down its decision, however, this

9a
court held that Supreme Court precedent required the opposite conclusion—that a mens rea of recklessness is “sufficient to constitute a crime that ‘has, an element, the use
or attempted use of physical force.’ ” United States v. Verwiebe, 874 F.3d 258, 262 (6th Cir. 2017) (interpreting an
identically worded clause of the Guidelines); see also
United States v. Harper, 875 F.3d 329, 330-32 (6th Cir.
2017) (criticizing this conclusion but construing Verwiebe
as binding precedent). We subsequently applied this holding to the ACCA’s use-of-force clause. Davis v. United
States, 900 F.3d 733, 736 (6th Cir. 2018). The district court
therefore cannot be affirmed on this ground.
Nor can the district court be affirmed on any other
ground. As an initial matter, Texas robbery requires the
degree of force that the Supreme Court has instructed is
necessary for an offense to be a violent felony. Walker was
convicted of intentionally, knowingly, or recklessly causing bodily injury to another. To be convicted of causing
bodily injury, he must have necessarily used force “ ‘capable of causing physical pain or injury.’ ” Stokeling, 139 S.
Ct. at 553-54 (quoting Curtis Johnson, 559 U.S. at 140);
see also United States v. Hall, 877 F.3d 800, 807 (8th Cir.
2017) (holding that Texas robbery is a violent felony because this offense “requires either actual bodily injury or
a threat thereof”). Although Texas’s definition of bodily
injury “appears to be purposefully broad,” Lane v. State,
763 S.W.2d 785, 786 (Tex. Crim. App. 1989), we are not
aware of any case in which someone was convicted of
Texas robbery without the use of force rising to the level
required by Stokeling. Walker does not argue otherwise.
Walker contends that a “defendant can sustain a robbery conviction in Texas where force arises from anger,
or a heat of passion-type circumstance; and where the use
of force is not contemporaneous with an intent to steal.”
But that matters not. The degree of premeditation—or

10a
provocation—is irrelevant to whether a crime is a violent
felony. All that is required under this circuit’s precedent
is that the use of force elements of the offense require a
mens rea of at least recklessness. Verwiebe, 874 F.3d at
262. Moreover, what makes Texas robbery a violent felony for purposes of the ACCA is that it requires the causation of injury, not that it involves theft.
Walker’s argument that Texas robbery is not a violent
felony because a defendant can be convicted for “mere solicitation” to commit this crime fares no better. Under
Texas law, an individual is responsible for a criminal act
committed by another person if “acting with intent to promote or assist the commission of the offense, he solicits . . .
the other person to commit the offense.” Texas Penal
Code § 7.02(a)(2). This is a form of accomplice liability,
which “is simply an alternative theory of liability; it is ‘not
a distinct substantive crime.’ ” United States v. Richardson, 906 F.3d 417, 426 (6th Cir. 2018) (citation omitted). If
a crime is a violent felony for purposes of the ACCA’s
force clause, a conviction for this crime remains a violent
felony whether one is convicted of this crime as a principal
or an accessory. Id. (holding that a “conviction for aiding
and abetting Hobbs Act robbery satisfies [the ACCA’s]
force clause”).
III. CONCLUSION

For the foregoing reasons, Texas Penal Code
§ 29.02(a)(1) is a violent felony under the ACCA’s force
clause and Walker has been convicted of three violent felonies. We therefore REVERSE the district court’s judgment and remand for resentencing under the ACCA.

11a
STRANCH, Circuit Judge, concurring.
James Walker is a 65-year-old man, convicted of possessing 13 bullets that he had found in a rooming house he
managed and removed for safekeeping. After deciding
that his prior conviction for Texas robbery was not a “violent felony,” the district court resentenced Walker to 88
months’ imprisonment for this crime. He has since been
released from prison. But because our caselaw has
changed, we are sending him back. He will now be required to serve a prison sentence that is over double as
long—a sentence of no less than 15 years. I concur in this
result for one reason only—it is required by our precedent.
Our decision today is not only unjust, it is also unsound. In United States v. Verwiebe, 874 F.3d 258, 262
(6th Cir. 2017), a panel of this court overruled our precedent, holding that a mens rea of recklessness was sufficient for an offense to have “as an element the use, attempted use, or threatened use of physical force.” The
opinion asserts that this result is required by the Supreme
Court’s decision in Voisine v. United States, 136 S. Ct.
2272 (2016). But, as another panel of this court explained
less than a month later, Verwiebe misreads both Voisine
and the ACCA’s plain text. See United States v. Harper,
875 F.3d 329, 330-32 (6th Cir. 2017).1
In Voisine, the Supreme Court construed the statutory definition of the term “misdemeanor crime of domestic violence,” which “necessarily involves the ‘use . . . of
physical force.’ ” Voisine, 136 S. Ct. at 2278 (quoting 18
Both Verwiebe and Harper dealt with the Career Offender Guideline’s use-of-force clause, not the ACCA’s use-of-force clause. But the
two clauses are identically phrased, and this court interprets them
identically. See Davis v. United States, 900 F.3d 733, 736 (6th Cir.
2018).
1

12a
U.S.C. § 921(a)(33)(A)). The ACCA’s force clause, on the
other hand, defines a “violent felony” as a crime punishable by more than a year of imprisonment that “has as an
element the use, attempted use, or threatened use of
physical force against the person of another.” 18 U.S.C.
§ 924(e)(2)(B)(i) (emphasis added). This distinction in
phrasing is significant. See Bennett v. Spear, 520 U.S. 154,
173 (1997) (“It is the cardinal principle of statutory construction that it is our duty to give effect, if possible, to
every clause and word of a statute.” (alterations, citation
and internal quotation marks omitted)).
As Harper painstakingly clarifies, the force clause’s
requirement that physical force be used “against the person of another” is “not meaningless, but restrictive.” 875
F.3d at 332. This phrase “describes the particular type of
‘use of physical force’ necessary to satisfy [the ACCA].
Specifically, [the ACCA] requires not merely a volitional
application of force, but a volitional application ‘against
the person of another.’ ” Id. at 331 (citation omitted). Thus,
the ACCA’s force clause “requires a mens rea—not only
as to the employment of force but also as to its consequences—that the provision in Voisine did not. That requirement is met if the actor intends (i.e., ‘consciously desires’) to apply force to the person of another.” Id. The
same “is not true of an actor who uses force recklessly.
True, to ‘use’ force, the actor must choose to employ it;
and thus his employment of the force is volitional. But the
force’s application ‘against the person of another’ is not.”
Id. Instead, an “actor is reckless if he ‘consciously disregard[s] a substantial risk that the conduct will cause harm
to another.’ ” Id. at 331-32 (quoting Voisine, 136 S. Ct. at
2278). In short, the ACCA’s requirement that force be
used against the person of another “narrows the scope of
the phrase ‘use of force’ to require not merely recklessness as to the consequences of one’s force, but knowledge

13a
or intent that the force apply to another person.” Id. at
332.
Like the Harper court, if we were not bound by Verwiebe, I would hold that an offense that requires only the
reckless use of force, as does Texas robbery, is not a violent felony under the ACCA. Id. At least two other circuits
have taken this position. See United States v. Hodge, 902
F.3d 420, 427 (4th Cir. 2018); United States v. Rose, 896
F.3d 104, 109-110 (1st Cir. 2018); United States v. Middleton, 883 F.3d 485, 497-500 (4th Cir. 2018) (Floyd, J., concurring); see also Gonzalez-Ramirez v. Sessions, 727 F.
App’x 404, 405 & n.7 (9th Cir. 2018) (construing a similarly-phrased statute, 18 U.S.C. § 16(a), which defines a
“crime of violence” as “an offense that has as an element
the use . . . of physical force against the person or property
of another”). But Verwiebe remains binding precedent unless and until “an inconsistent decision of the United
States Supreme Court requires modification of the decision or this Court sitting en banc overrules the prior decision.” Salmi v. Sec’y of Health & Human Servs., 774 F.2d
685, 689 (6th Cir. 1985). I therefore reluctantly concur in
this court’s opinion reversing the district court and returning James Walker to prison.

14a
APPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION

No. 07-20243 / No. 14-02021

JAMES WALKER,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent

Filed: April 20, 2017

ORDER
MAYS, United States District Judge.
Before the Court is James Walker’s January 6, 2014
pro se motion seeking to vacate, set aside, or correct his
sentence under 28 U.S.C. § 2255 (the “§ 2255 Motion”).
(Cv. ECF No. 1 at 1.)1 Walker challenges his sentence in

Unless otherwise noted, all pin cites for record citations are to the
“PageID” page number.
1

15a
Criminal Case No. 07-20243.2 On November 12, 2014, the
Court ordered the United States (the “Government”) to
respond. (Cv. ECF No. 5 at 24.) The Government responded on March 27, 2015. (Cv. ECF No. 11 at 35.)
On October 13, 2015, Walker moved to amend the
§ 2255 Motion, seeking relief under Johnson v. United
States, 135 S. Ct. 2551 (2015) (“Johnson”). On October 12,
2016, after Walker had filed two further motions to
amend, the Court ordered the Government to respond.
(Cv. ECF No. 22 at 112.) The Government responded on
October 19, 2016. (Cv. ECF No. 23 at 113.) Walker replied
on November 7, 2016. (Cv. ECF No. 26 at 139.)
For the following reasons, the § 2255 Motion is
GRANTED in part and DENIED in part.
I.

BACKGROUND
A. Conviction, Sentence, and Appeal

On August 14, 2007, a federal grand jury in the Western District of Tennessee returned a one-count indictment charging Walker with knowingly possessing ammunition as a convicted felon, in violation of 18 U.S.C.
§ 922(g). (Cr. ECF No. 3 at 3.) Walker proceeded to trial
on February 9, 2010. (Cr. ECF No. 79 at 89.) Following a
jury trial, Walker was convicted on February 11, 2010.
(Id.)
The United States Probation Office prepared a
Presentence Investigation Report (the “PSR”). The PSR
stated that Walker managed a rooming house at 740 Lucy
in Memphis, Tennessee, from which he sold crack cocaine
to undercover police officers on several occasions.
(Id. ¶¶ 5-9.) On August 1, 2007, officers with the Memphis
Police Department conducted a knock and talk at 740
References to “07-20243” are to filings in United States v. Walker,
Case No. 2:07-cr-20243-SHM-1 (W.D. Tenn.).
2

16a
Lucy following complaints of drug sales. (Id. ¶ 10.) Walker
answered the door and provided verbal and written consent for the officers to search his room. (Id.) The search
uncovered 0.3 gm of crack cocaine and 13 9mm rounds of
ammunition. (Id.) Walker admitted that he had previously
been convicted of a felony. (Id. ¶ 11.)3
The PSR calculated Walker’s guidelines sentencing
range pursuant to the 2009 edition of the United States
Sentencing Commission Guidelines Manual (the
“U.S.S.G.”). (Id. at ¶ 16.) Walker was an armed career
criminal under the Armed Career Criminal Act, 18 U.S.C.
§ 924(e) (the “ACCA”). (Id. ¶ 25.) He had five prior violentfelony convictions. (Id. ¶¶ 31, 33-35, 37.) Walker’s guidelines range was 262-327 months in prison. (Id. ¶ 72.) Under the ACCA, Walker’s statutory-minimum sentence
was 180 months. (Id. ¶ 71.)
On July 14, 2011, the Court sentenced Walker to 180
months, followed by three years’ supervised release. (Cr.
ECF No. 108.) Judgment was entered on July 21, 2011.
(Cr. ECF No. 109 at 146.)
Walker appealed, challenging the Court’s denial of a
motion for mistrial and contending that his mandatory
180-month sentence was unconstitutional under the
Eighth Amendment. United States v. Walker, 506
F. App’x 482, 483 (6th Cir. 2012). The Court of Appeals
for the Sixth Circuit affirmed Walker’s conviction and
sentence on November 28, 2012. Id.
B. § 2255 Proceedings

On January 6, 2014, Walker filed the § 2255 Motion,
asserting numerous grounds for relief. Walker argues:

At his sentencing hearing, Walker did not object to these facts,
and the Court accepted them for sentencing purposes. (Cr. ECF No.
124 at 549-51.)
3

17a
1. that he was subjected to an illegal, warrantless
search, in violation of the Fourth Amendment;
2. that his trial counsel was ineffective for failing to file
a motion to suppress illegally discovered evidence and for
failing to request a jury instruction on the “innocent possession” or justification defense;
3. that his 180-month sentence under the ACCA is
cruel and unusual punishment, in violation of the Eighth
Amendment; and
4. that there was insufficient evidence at trial to support a finding of constructive possession of ammunition.
(Cv. ECF No. 1 at 4-13.)
On October 13, 2015, Walker filed a pro se Motion for
Leave to Amend 2255 Motion (the “First Motion to
Amend”), seeking to add two additional grounds for relief:
5. that, in light of Johnson, he no longer qualifies as an
armed career criminal under the ACCA and that his sentence must be set aside; and
6. that his counsel was ineffective for not challenging
his armed-career-criminal designation at the time of his
sentencing.
(Cv. ECF No. 13 at 48.)
On June 24, 2016, the Court appointed counsel to represent Walker for purposes of Johnson Review. (Cr. ECF
No. 134 at 639.) On June 27, 2016, Walker filed a Motion
to Vacate and Correct Sentence Under 28 U.S.C. § 2255,
which the Court construes as a second motion to amend
the § 2255 Motion to add grounds for relief under Johnson
(the “Second Motion to Amend”). (Cv. ECF No. 16 at 75.)
On August 15, 2016, Walker filed a Motion for Leave to
Amend Motion to Vacate and Correct Sentence Under 28

18a
U.S.C. § 2255, which the Court construes as a third motion
to amend the § 2255 Motion to add grounds for relief under Johnson (the “Third Motion to Amend”). (Cv. ECF
No. 19 at 82.) On September 19, 2016, the Government responded, stating that it has no objection to the filing of the
proposed amendment. (Cv. ECF No. 21 at 110.)
C. Preliminary Matters

For good cause shown, the First, Second, and Third
Motions to Amend are GRANTED.
Walker has filed several motions seeking appointment
of counsel. On February 16, 2016, Walker filed a Notice,
which the Court construes as a pro se Motion to Appoint
Counsel (the “First Appointment of Counsel Motion”).
(Cv. ECF No. 14 at 71.) On June 13, 2016, Walker filed a
Motion for Resentencing and Release with Request for
Appointment of Counsel (the “Second Appointment of
Counsel Motion”). (Cr. ECF No. 133 at 637.) Because
Walker now has Court-appointed counsel, the First Appointment of Counsel Motion and the Second Appointment of Counsel Motion are DENIED as moot.
II. STANDARD OF REVIEW

Walker seeks relief under 28 U.S.C. § 2255. Under
§ 2255(a),
[a] prisoner in custody under sentence of a court established by Act of Congress claiming the right to be
released upon the ground that the sentence was imposed in violation of the Constitution or laws of the
United States . . . or that the sentence was in excess of
the maximum authorized by law . . . may move the
court which imposed the sentence to vacate, set aside
or correct the sentence.
28 U.S.C. § 2255(a).

19a
“To succeed on a § 2255 motion, a prisoner in custody
must show ‘(1) an error of constitutional magnitude; (2) a
sentence imposed outside the statutory limits; or (3) an
error of fact or law that was so fundamental as to render
the entire proceeding invalid.’ ” McPhearson v. United
States, 675 F.3d 553, 558-59 (6th Cir. 2012) (quoting Mallett v. United States, 334 F.3d 491, 496-97 (6th Cir. 2003)).
A prisoner must file his § 2255 motion within one year
of the latest of:
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental action in violation of the
Constitution or laws of the United States is removed,
if the movant was prevented from making a motion by
such governmental action;
(3) the date on which the right asserted was initially
recognized by the Supreme Court, if that right has
been newly recognized by the Supreme Court and
made retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or
claims presented could have been discovered through
the exercise of due diligence.
28 U.S.C. § 2255(f).
A § 2255 motion is not a substitute for a direct appeal.
Ray v. United States, 721 F.3d 758, 761 (6th Cir. 2013).
“[C]laims not raised on direct appeal,” which are thus procedurally defaulted, “may not be raised on collateral review unless the petitioner shows cause and prejudice.”
Massaro v. United States, 538 U.S. 500, 504 (2003) (citing
cases); see also, e.g., Jones v. Bell, 801 F.3d 556, 562 (6th

20a
Cir. 2015) (quoting Wainwright v. Sykes, 433 U.S. 72, 84
(1977)).
In the procedural-default context, the cause inquiry
“ ‘ordinarily turn[s] on whether . . . some objective factor
external to the defense impeded counsel’s efforts’ ” to
raise the issue on direct appeal. Ambrose v. Booker, 684
F.3d 638, 645 (6th Cir. 2012) (quoting Murray v. Carrier,
477 U.S. 478, 488 (1986)) (alteration and ellipses in Ambrose); see also United States v. Frady, 456 U.S. 152, 16768 (1982) (cause-inquiry standards in § 2254 cases apply
to § 2255 cases). “[F]or cause to exist, an ‘external impediment, whether it be government interference or the reasonable unavailability of the factual basis for the claim,
must have prevented petitioner from raising the claim.’ ”
Bates v. United States, 473 F. App’x 446, 448-49 (6th Cir.
2012) (quoting McCleskey v. Zant, 499 U.S. 467, 497
(1991)) (emphasis removed).
To show prejudice to excuse default, a petitioner must
show “ ‘actual prejudice’ resulting from the errors of
which he complains.” Frady, 456 U.S. at 168; see also Ambrose, 684 F.3d at 649.
Ineffective assistance of counsel can constitute cause
excusing procedural default. Where a petitioner claims
that a procedural default occurred due to ineffective assistance of counsel, “relief under § 2255 [is] available subject to the standard of Strickland v. Washington, [466
U.S. 668 (1984)].” Grant v. United States, 72 F.3d 503, 506
(6th Cir. 1996); see also Bell, 801 F.3d at 562. Ineffective
assistance of counsel, under the Strickland standard, can
also serve as an independent ground for § 2255 relief. See,
e.g., Campbell v. United States, 686 F.3d 353, 357 (6th Cir.
2012).
To establish ineffective assistance of counsel, “[f]irst,
the defendant must show that counsel’s performance was
deficient. . . . Second, the defendant must show that the

21a
deficient performance prejudiced the defense.” Strickland, 466 U.S. at 687. “Unless a defendant makes both
showings, it cannot be said that the conviction . . . resulted
from a breakdown in the adversary process that renders
the result unreliable.” Id.
To demonstrate deficient performance by counsel, a
petitioner must show that “counsel’s representation fell
below an objective standard of reasonableness.” Id. at
688. In considering an ineffective-assistance claim, a court
“must apply a ‘strong presumption’ that counsel’s representation was within the ‘wide range’ of reasonable professional assistance. . . . The challenger’s burden is to
show ‘that counsel made errors so serious that counsel
was not functioning as the “counsel” guaranteed the defendant by the Sixth Amendment.’ ” Harrington v. Richter, 562 U.S. 86, 104 (2011) (quoting Strickland, 466 U.S.
at 687, 689).
To demonstrate prejudice, a petitioner must establish
“a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Strickland, 466 U.S. at 694. “ ‘A reasonable probability is a probability sufficient to undermine
confidence in the outcome.’ ” Id. “In assessing prejudice
under Strickland, the question is not whether a court can
be certain counsel’s performance had no effect on the outcome or whether it is possible a reasonable doubt might
have been established if counsel acted differently. . . . The
likelihood of a different result must be substantial, not
just conceivable.” Richter, 562 U.S. at 111-12 (citing Wong
v. Belmontes, 558 U.S. 15, 27 (2009); Strickland, 466 U.S.
at 693).
“[A] court need not determine whether counsel’s performance was deficient before examining the prejudice
suffered by the defendant as a result of the alleged deficiencies.” Strickland, 466 U.S. at 697. If a reviewing court

22a
finds a lack of prejudice, it need not determine whether,
in fact, counsel’s performance was deficient. Id.
“Surmounting Strickland’s high bar is never an easy
task.” Padilla v. Kentucky, 559 U.S. 356, 371 (2010) (citing
Strickland, 466 U.S. at 689, 693).
An ineffective-assistance claim can function as a way
to escape rules of waiver and forfeiture and raise issues not presented at trial, and so the Strickland
standard must be applied with scrupulous care, lest
“intrusive post-trial inquiry” threaten the integrity of
the very adversary process the right to counsel is
meant to serve. Even under de novo review, the standard for judging counsel’s representation is a most deferential one. Unlike a later reviewing court, the attorney observed the relevant proceedings, knew of materials outside the record, and interacted with the client,
with opposing counsel, and with the judge. It is “all too
tempting” to “second-guess counsel’s assistance after
conviction or adverse sentence.” The question is
whether an attorney’s representation amounted to incompetence under “prevailing professional norms,”
not whether it deviated from best practices or most
common custom.
Richter, 562 U.S. at 105 (citations omitted). “Counsel [cannot] be unconstitutionally ineffective for failing to raise . . .
meritless arguments.” Mapes v. Coyle, 171 F.3d 408, 427
(6th Cir. 1999).
Alternatively, a petitioner may obtain review of a procedurally defaulted claim by demonstrating his “actual innocence.” Bousley v. United States, 523 U.S. 614, 623-24
(1998). “To establish actual innocence, petitioner must
demonstrate that, in light of all the evidence, it is more

23a
likely than not that no reasonable juror would have convicted him.” Id. at 623 (quotation marks omitted) (quoting
Schlup v. Delo, 513 U.S. 298, 327-28 (1995)).
After a petitioner files a § 2255 motion, the Court reviews it and, “[i]f it plainly appears from the motion, any
attached exhibits, and the record of prior proceedings that
the moving party is not entitled to relief, the judge must
dismiss the motion . . . .” Rules Governing Section 2255
Proceedings for the U.S. District Courts (“§ 2255 Rules”)
at Rule 4(b). “If the motion is not dismissed, the judge
must order the United States attorney to file an answer,
motion, or other response within a fixed time, or to take
other action the judge may order.” Id. The § 2255 movant
is entitled to reply to the government’s response. Id. at
Rule 5(d). The Court may also direct the parties to provide
additional information relating to the motion. Id. at Rule
7(a). If the district judge addressing the § 2255 motion is
the same judge who oversaw the trial, the judge “ ‘may
rely on his or her recollection of the trial’ ” in denying the
motion. Christopher v. United States, 605 F. App’x 533,
537 (6th Cir. 2015) (quoting Arredondo v. United States,
178 F.3d 778, 782 (6th Cir. 1999)).
III. ANALYSIS
A. Timeliness of § 2255 Motion

On November 28, 2012, the Sixth Circuit affirmed
Walker’s conviction. Walker, 506 F. App’x 482. Walker did
not seek a writ of certiorari in the U.S. Supreme Court.
For § 2255(f)(1) purposes, “[w]here a defendant pursues direct review but does not seek a writ of certiorari,
the conviction becomes final at expiration of the time for
seeking such a writ.” Story v. United States, Nos. 2:13CR-55-JRG-MCLC-1, 2:16-CV-282-JRG, 2016 WL
7077616, at *2 (E.D. Tenn. Dec. 2, 2016) (citing Clay v.
United States, 537 U.S. 522, 525 (2003); U.S. Sup. Ct. R.

24a
13(3)). The deadline for seeking a writ of certiorari from
the U.S. Supreme Court is 90 days from the date of the
Court of Appeals’s decision. U.S. Sup. Ct. R. 13(3). That
deadline was February 26, 2013. Walker’s conviction became final that day. Walker filed the § 2255 Motion on
January 6, 2014, less than a year after his conviction became final. The § 2255 Motion is timely.
Walker also challenges his sentence based on Johnson, which provides a new rule of constitutional law made
retroactively applicable to cases on collateral review.
Welch v. United States, 136 S. Ct. 1257, 1268 (2016). Johnson was decided on June 26, 2015, and Walker filed the
First Motion to Amend on October 13, 2015. Walker filed
that motion within one year of Johnson. Walker’s § 2255
Motion, as amended, is timely and properly before the
Court. See 28 U.S.C. §§ 2255(f)(3).
B. Fourth Amendment Violations

Walker contends that law enforcement officers violated the Fourth Amendment during the search that led
to his arrest. He alleges that, without probable cause, reasonable suspicion that a crime was in progress, or a warrant, officers illegally searched the room where they
found Walker at 740 Lucy, which led to discovery of the
ammunition that formed the basis of Walker’s § 922(g)
conviction. Walker alleges that the building at 740 Lucy
did not belong to him and that he was visiting as a third
party. Walker asserts that, before the search, the officers
did not know Walker was a convicted felon or have reason
to suspect that Walker was in possession of a gun or ammunition. Walker alleges that the officers found the ammunition in violation of the plain sight rule. (Cv. ECF No.
1 at 4-8.)
Walker cannot assert a free-standing Fourth Amendment claim in collateral proceedings under § 2255. Ray,

25a
721 F.3d at 762. “[T]he Fourth Amendment exclusionary
rule ‘is a judicially created remedy rather than a personal
constitutional right’ whose purpose is ‘to safeguard
Fourth Amendment rights generally through its deterrent effect.’ ” Id. (quoting Kimmelman v. Morrison, 477
U.S. 365, 376 (1986)). “It is, thus, a structural remedy designed to exclude evidence so as to deter police misconduct, not to ‘redress the injury to the privacy of the victim
of the search or seizure.’ ” Id. (quoting Stone v. Powell, 428
U.S. 465, 486 (1976)). Although “the merits of a Fourth
Amendment claim still must be assessed when a claim of
ineffective assistance of counsel is founded on incompetent representation with respect to a Fourth Amendment
issue,” absent a showing that Walker did not have “an opportunity for full and fair litigation of [his Fourth Amendment] claim at trial and on direct appeal,” Walker’s claim
is not cognizable under a § 2255 motion. Id.
Walker has not shown that he was denied an opportunity for full and fair litigation of his Fourth Amendment
claim at trial and on direct appeal. The § 2255 Motion is
DENIED on this ground.
C. Ineffective Assistance of Trial Counsel

Walker alleges that his trial counsel was ineffective (1)
for failing to file a motion to suppress evidence of the ammunition found in Walker’s possession and (2) for failing
to request a jury instruction on the “innocent possession”
or justification defense.
1. Failure to File Motion to Suppress
Walker’s trial counsel did not file a motion to suppress
evidence found during the search. (Cv. ECF No. 8 at 30.)
In a sworn affidavit, trial counsel states:
Based on the discovery received from the Government, the review of the discovery with Mr. Walker and

26a
the conversations with Mr. Walker surrounding the incident, it was determined that a motion to suppress
was unwarranted because Mr. Walker gave the officers consent to search the residence. So, while the officers did not have a warrant to search the rooming
house at 740 Lucy, no warrant was necessary when
consent to search was provided by Mr. Walker.
(Id.) The Government argues that, because Walker gave
the officers consent to search the room Walker was occupying, Walker’s ineffective assistance claim on this
ground is meritless. (Cv. ECF No. 11 at 39-42.)
The Fourth Amendment guarantees “[t]he right of the
people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures.” U.S.
Const. amend. IV. Warrantless searches and seizures
“are per se unreasonable under the Fourth Amendment—subject only to a few specifically established and
well-delineated exceptions.” Katz v. United States, 389
U.S. 347, 357 (1967). One exception is a search conducted
with a person’s free and voluntary consent. Schneckloth v.
Bustamonte, 412 U.S. 218, 219, 248 (1973); United States
v. Carter, 378 F.3d 584, 587 (6th Cir. 2004). “Consent to a
search may be in the form of words, gesture, or conduct.”
Carter, 378 F.3d at 587 (quotation marks omitted). The
Government must prove that consent was “freely and voluntarily given,” and “consent must be proved by clear and
positive testimony.” United States v. Scott, 578 F.2d 1186,
1188 (6th Cir. 1976).
Trial testimony showed that several law enforcement
officers arrived at 740 Lucy, following up on information
about drug activity provided by an undercover officer.
(Cr. ECF No. 121 at 237.) The officers went to the front
of the building, a multi-apartment rooming house, entered
the main door, and knocked on the first door on the left.
(Cr. ECF No. 122 at 327.) After Walker answered, they

27a
identified themselves as police officers with the Memphis
Police Department. The officers asked if they could enter,
and Walker allowed them in. (Id. at 327-28.)
One officer testified that, on entering, he saw some
crack cocaine and a box containing ammunition on a
dresser in the room. (Id. at 328-29.) He testified that,
based on his training and experience, he asked Walker if
he had any weapons in the room and that Walker said he
did not. (Id. at 329.) The officer testified that he asked
Walker if “he’d mind if [they] looked around his room” and
Walker answered that he did not. (Id.) The officer testified that he presented Walker with a consent-to-search
form and advised Walker of the form and what the officers
planned to do. (Id.) After Walker had signed the form, the
officers searched the room. (Id.) The officers seized the
crack cocaine and ammunition and placed Walker under
arrest. (Id. at 335.)
The evidence shows that Walker’s consent was freely
and voluntarily given. He does not allege the contrary. Because Walker consented to the search, the search did not
violate the Fourth Amendment. A motion to suppress evidence found during the search would have been meritless. Walker’s trial counsel was not ineffective for failing
to file a motion to suppress. The § 2255 Motion is DENIED on this ground.
2. Failure to Request Jury Instruction
Walker’s trial counsel did not request an “innocent
possession”-defense jury instruction. (Cv. ECF No. 8 at
31.) In a sworn affidavit, trial counsel states:
Based on the facts as I knew them to be in Mr.
Walker’s case, we could not overcome the preponderance burden which would warrant the rarely given
jury instruction. There was no unlawful and present,
imminent, and impending threat of such a nature as to

28a
induce a well-grounded apprehension of death or serious bodily injury. Mr. Walker was not under attack by
or from anyone.
(Id.) The Government argues that because Walker was
never under an unlawful or present threat, Walker’s ineffective assistance claim on this ground is meritless. (Cv.
ECF No. 11 at 43.)
In felon-in-possession cases under 18 U.S.C. § 922(g),
“a defense of justification may arise in rare situations.”
United States v. Singleton, 902 F.2d 471, 472 (6th Cir.
1990). To establish this defense, a defendant must show:
(1) that defendant was under an unlawful and present,
imminent, and impending threat of such a nature as to
induce a well-grounded apprehension of death or serious bodily injury;
(2) that defendant had not recklessly or negligently
placed himself in a situation in which it was probable
that he would be forced to choose the criminal conduct;
(3) that defendant had no reasonable, legal alternative
to violating the law, a chance both to refuse to do the
criminal act and also to avoid the threatened harm;
and
(4) that a direct causal relationship may be reasonably
anticipated between the criminal action taken and the
avoidance of the threatened harm.
Id. (alterations, citations, and quotation marks omitted).
A defendant must also “show that he did not maintain possession any longer than absolutely necessary.” Id. at 473.
Walker argues that his counsel should have requested
an “innocent possession”-defense jury instruction because: (a) there was no firearm present; (b) Walker did
not live at the residence and was not aware that the ammunition was in the room; (c) he was not at the residence

29a
for long; (d) he did not intend to illegally possess the ammunition; and (e) the officers did not have any suspicion
that ammunition was present or that he knew it was present. (Cv. ECF No. 1 at 10.)
Walker does not assert that he faced any “unlawful
and present, imminent, and impending threat” of death or
serious bodily injury that would have warranted his possession of the ammunition. See Singleton, 902 F.2d at 472.
Because Walker did not face any impending threat of
death or serious bodily injury, he has not shown that a justification-defense jury instruction was warranted. A request for such a jury instruction would have been meritless. Walker’s trial counsel was not ineffective for not asking for that instruction. The § 2255 Motion is DENIED on
this ground.
D. Eighth Amendment Violation

Walker contends that his 180-month sentence violates
the Eighth Amendment. Walker argues there was a lack
of evidence supporting the elements of intent, knowledge,
and possession necessary to establish a felon-in-possession offense. Walker further argues that “bullets are
harmless when there is not a firearm present.” (Cv. ECF
No. 1 at 13.)
“[A] § 2255 motion may not be employed to relitigate
an issue that was raised and considered on direct appeal
absent highly exceptional circumstances, such as an intervening change in the law.” Jones v. United States, 178
F.3d 790, 796 (6th Cir. 1999). Walker challenged his 180month sentence on Eighth Amendment grounds on direct
appeal. Walker, 506 F. App’x at 489-90. The court of appeals rejected both Walker’s categorical and proportionality challenges to his sentence. Id.
Walker does not allege highly exceptional circumstances that warrant reconsideration of this issue. He

30a
cites no intervening change in the law. The § 2255 Motion
is DENIED on this ground.
E. Insufficiency of Evidence of Constructive Possession

Walker challenges the sufficiency of the evidence supporting a finding that he constructively possessed the ammunition. (Cv. ECF No. 1 at 13.)
Walker procedurally defaulted his sufficiency-of-theevidence claim by failing to raise it on direct appeal. The
Sixth Circuit has “repeatedly held that the sufficiency of
the evidence to support a conviction may not be collaterally reviewed on a Section 2255 proceeding.” United
States v. Osborn, 415 F.2d 1021, 1024 (6th Cir. 1969). The
§ 2255 Motion is DENIED on this ground.
F. Johnson Challenge

1. Propriety of Merits Review
Walker’s Johnson challenge alleges constitutional error that resulted in a sentence that now exceeds the statutory limits applicable to his offense. See McPhearson,
675 F.3d at 559. The Government does not argue that
Walker’s Johnson challenge is procedurally defaulted.
Walker did not challenge his ACCA sentencing enhancement on direct appeal. Courts that have considered procedural-default challenges to prisoners’ Johnson-based
§ 2255 motions have consistently ruled that cause and
prejudice excuse a prisoner’s procedural default in the
Johnson context. E.g., Duhart v. United States, No. 0860309-CR, 2016 WL 4720424, at *4 (S.D. Fla. Sept. 9,
2016) (“Where the Supreme Court explicitly overrules
well-settled precedent and gives retroactive application to
that new rule after a litigant’s direct appeal, ‘[b]y definition’ a claim based on that new rule cannot be said to have
been reasonably available to counsel at the time of the direct appeal.” (quoting Reed v. Ross, 468 U.S. 1, 17 (1984))).

31a
Because the Court considers Walker’s Johnson challenge on the merits, it need not address Walker’s ineffective-assistance claim based on his counsel’s failure to challenge Walker’s armed career criminal designation at the
time of his sentencing. Walker’s Johnson-based ineffective-assistance claim is DENIED as moot.
2. ACCA’s “Violent Felony” Framework
Under the ACCA, a defendant convicted under 18
U.S.C. § 922(g) who has three prior convictions for violent
felonies or serious drug offenses is subject to a mandatory
minimum sentence of 180 months in prison. 18 U.S.C.
§ 924(e). Without the prior qualifying convictions, a defendant convicted under § 922(g) is subject to a statutory
maximum sentence of 120 months in prison. 18 U.S.C.
§ 924(a)(2).
The ACCA defines “violent felony” as “any crime punishable by imprisonment for a term exceeding one year”
that (a) “has as an element the use, attempted use, or
threatened use of physical force against the person of another” (the “use-of-force clause”); (b) “is burglary, arson,
or extortion, [or] involves use of explosives” (the “enumerated-offenses clause”); or (c) “otherwise involves conduct
that presents a serious potential risk of physical injury to
another” (the “residual clause”). 18 U.S.C. § 924(e)(2)(B).
In Johnson, the Supreme Court held that a sentence
imposed under the residual clause of the ACCA violates
due process. 135 S. Ct. at 2563. In Welch, the Supreme
Court applied its holding in Johnson retroactively to
ACCA cases on collateral review. 136 S. Ct. at 1268. See
also In re Watkins, 810 F.3d 375, 383-84 (6th Cir. 2015)
(same).
Johnson does not question sentencing enhancements
under the ACCA’s use-of-force or enumerated-offenses

32a
clauses. Johnson, 135 S. Ct. at 2563. “The government accordingly cannot enhance [a defendant’s] sentence based
on a prior conviction that constitutes a violent felony pursuant only to the residual clause.” United States v.
Priddy, 808 F.3d 676, 683 (6th Cir. 2015). “But a defendant can still receive an ACCA-enhanced sentence based
on the statute’s use-of-force clause or enumerated-offense[s] clause.” Id.
“When determining which crimes fall within . . . the
violent felony provision” of the ACCA, “federal courts use
the categorical approach.” United States v. Covington,
738 F.3d 759, 762 (6th Cir. 2013) (quotation marks omitted).4 Using that approach, courts “look [] only to the statutory definitions of the prior offenses, and not to the particular facts underlying those convictions.” Taylor v.
United States, 495 U.S. 575, 600 (1990).
“[T]here are two steps in applying the categorical approach to determine whether a prior conviction constitutes . . . a violent felony under the ACCA.” Covington,
738 F.3d at 763. “First, a court must ask whether the statute at issue is divisible by determining if the statute lists
‘alternative elements.’ ” Id. (quoting Descamps v. United
States, 133 S. Ct. 2276, 2293 (2013)). “[A] divisible statute,
listing potential offense elements in the alternative, renders opaque which element played a part in the defendant’s conviction.” Descamps, 133 S. Ct. at 2283.
If a statute is divisible, meaning that it “comprises
multiple, alternative versions of the crime,” a court uses a

Covington addresses the definition of “crime of violence” in
U.S.S.G. § 4B1.2(a). 738 F.3d at 761-62. Guidelines decisions are applicable to ACCA cases because, “[w]hether a conviction is a ‘violent
felony’ under the ACCA is analyzed in the same way as whether a
conviction is a ‘crime of violence’ under . . . § 4B1.2(a).” United States
v. McMurray, 653 F.3d 367, 371 n.1 (6th Cir. 2011).
4

33a
“modified categorical approach” and may “examine a limited class of documents,” such as the indictment and jury
instructions, “to determine which of a statute’s alternative
elements formed the basis of the defendant’s prior conviction.”5 Id. at 2283-84. “Where the defendant has pled
guilty, these so-called Shepard documents may include
the ‘charging document, written plea agreement, transcript of plea colloquy, and any explicit factual finding by
the trial judge to which the defendant assented.’ ” United
States v. Denson, 728 F.3d 603, 608 (6th Cir. 2013) (quoting Shepard v. United States, 544 U.S. 13, 16 (2005)).
“[T]he question is whether the court documents establish
that the defendant necessarily admitted the elements of a
predicate offense through his plea.” United States v.
McMurray, 653 F.3d 367, 377 (6th Cir. 2011) (quotation
marks omitted).
The Supreme Court has clarified that a court should
use the modified categorical approach only when a statute
“lists multiple elements disjunctively,” not when it “enu-

In United States v. Mitchell, the court explained that “[a] divisible
statute is necessary but not sufficient for application of the modified
categorical approach.” 743 F.3d 1054, 1063 (6th Cir. 2014). The court
further explained, “We make explicit a step in the analysis that the
Covington panel alluded to implicitly: if a statute is divisible—in that
it sets out one or more elements of the offense in the alternative—at
least one, but not all of those alternative elements must depart from:
(1) the elements of the generic ACCA crime (if the conviction is based
on an enumerated offense); or (2) the definitions provided in . . . the
‘use of physical force” clause . . . (if the conviction is based on a nonenumerated offense).” Id. at 1065. The comments in Mitchell appear
to be dicta. The Court need not determine whether this portion of
Mitchell controls because, as discussed below, the Tennessee third
degree burglary and Texas robbery statutes under which Walker was
convicted each included at least one alternative element that departed
from the definition in the ACCA’s use-of-force and enumerated-offenses clauses.
5

34a
merates various factual means of committing a single element.” Mathis v. United States, 136 S. Ct. 2243, 2249, 2256
(2016). A “court faced with an alternatively phrased statute is thus to determine whether its listed items are elements or means.” Id. at 2256. It can do so by examining
state law to determine (a) whether “a state court decision
definitively answers the question,” or (b) whether “the
statute on its face . . . resolve[s] the issue.” Id. Alternatively listed items are elements where they “carry different punishments” or where the statute “itself identif[ies]”
them as “things [that] must be charged.” Id. They are
means where the “statutory list is drafted to offer ‘illustrative examples’ ” only. Id. “[I]f state law fails to provide
clear answers,” a court may take “a peek at the record
documents” of the prior conviction “for the sole and limited purpose of determining whether the listed items are
elements of the offense.” Id. (alterations and quotation
marks omitted). If the listed items are “means, the court
has no call to decide which of the statutory alternatives
was at issue in the earlier prosecution.” Id.
After having determined which of a statute’s alternative elements formed the basis of the defendant’s prior
conviction, or after having determined that the statute is
indivisible, the second step in the categorical approach requires the court to “ask whether the offense the statute
describes, as a category, is a [violent felony].” Covington,
738 F.3d at 763.
“When determining whether a particular offense qualifies as a ‘violent felony’ under the use-of-force clause, [a
court is] limited to determining whether that offense ‘has
as an element the use, attempted use, or threatened use
of physical force against the person of another.’ ” Priddy,
808 F.3d at 685 (quoting 18 U.S.C. § 924(e)(2)(B)(i)). “The
force involved must be ‘violent force—that is, force capable of causing physical pain or injury to another person.’ ”

35a
Id. (quoting Johnson v. United States, 559 U.S. 133, 140
(2010) (“Johnson 2010”)).
When determining whether a particular offense qualifies as a violent felony under the enumerated-offenses
clause, the “question is whether the elements of the prior
conviction are equivalent to the elements of the generic
definition of one of the offenses enumerated in . . .
[§] 924(e)(2)(B)(ii).” Covington, 738 F.3d at 764. “The
prior conviction qualifies as an ACCA predicate only if the
statute’s elements are the same as, or narrower than,
those of the generic offense.” Descamps, 133 S. Ct. at
2281.
“If the offense ‘sweeps more broadly’ and ‘criminalizes
a broader swath of conduct’ than [would] meet these tests,
then the offense, as a category, is not a [violent felony].”
Covington, 738 F.3d at 764 (quoting Descamps, 133 S. Ct.
at 2281, 2283, 2289-91).
3. Analysis of Walker’s Previous Convictions
The Government contends that four of the five previous convictions identified as ACCA predicates in Walker’s
PSR remain qualifying convictions after Johnson. (Cv.
ECF No. 23 at 116-28.) They are: (1) a 1974 Tennessee
conviction for robbery with a deadly weapon; (2) a 1982
Texas conviction for robbery; (3) a 1986 Tennessee conviction for third-degree burglary; and (4) a 1994 Tennessee
conviction for robbery. (PSR ¶¶ 31, 33, 35, 37.) The Government concedes that Walker’s 1983 Tennessee conviction for attempted third-degree burglary does not qualify
as an ACCA predicate after Johnson. (Cv. ECF No. 23 at
128; see PSR ¶ 34.)
a. Tennessee Robbery Convictions

Walker concedes that the Sixth Circuit has held, postJohnson, that a Tennessee robbery conviction is a violent

36a
felony under the ACCA’s use-of-force clause. (Cv. ECF
No. 19 at 91.) In United States v. Taylor, the Sixth Circuit
affirmed the continued vitality post-Johnson of United
States v. Mitchell, 743 F.3d 1054 (6th Cir. 2014), which
held that Tennessee robbery (substantially the same version of the robbery statute as the statute under which
Walker was convicted) is categorically a violent felony under the ACCA’s use-of-force clause. 800 F.3d 701, 718-19
& n.5 (6th Cir. 2015). In United States v. Johnson, the
Sixth Circuit held that Tennessee robbery with a deadly
weapon (again, substantially the same version of the robbery statute as the statute under which Walker was convicted) is also categorically a violent felony under the
ACCA’s use-of-force clause. 530 F. App’x 528, 533 (6th
Cir. 2013) (citing United States v. Gloss, 661 F.3d 317 (6th
Cir. 2011)).
To preserve the issue for appellate review, Walker argues that a circuit split in post-Johnson analyses of robbery convictions under various states’ robbery statutes
calls into question the continued validity of the Sixth Circuit’s decision in Taylor. (Cv. ECF No. 19 at 91-93.) However, “[a] published prior panel decision” by the Sixth Circuit “ ‘remains controlling authority unless an inconsistent
decision of the United States Supreme Court requires
modification of the decision or [the Sixth Circuit] sitting
en banc overrules the prior decision.’ ” Rutherford v. Columbia Gas, 575 F.3d 616, 619 (6th Cir. 2009) (quoting
Salmi v. Sec’y of Health & Human Servs., 774 F.2d 685,
689 (6th Cir. 1985)). The Court must follow Mitchell, Taylor, and other Sixth Circuit decisions classifying Tennessee’s robbery statutes under the ACCA. Both Walker’s
1974 Tennessee conviction for robbery with a deadly
weapon and his 1994 Tennessee conviction for robbery remain violent felonies under the ACCA after Johnson.

37a
b. Tennessee Third-Degree Burglary Conviction

At the time of the offense conduct on which Walker’s
1986 third-degree burglary conviction was based, Tenn.
Code Ann. § 39-3-404 provided:
(a)(1) Burglary in the third degree is the breaking and
entering into a business house, outhouse, or any other
house of another, other than dwelling house, with the
intent to commit a felony.
(2) Every person convicted of this crime, on first offense, shall be imprisoned in the penitentiary for not
less than three (3) years nor more than then (10) years.
....
(b)(1) Any person who, with intent to commit crime,
breaks and enters, either by day or by night, any
building, whether inhabited or not, and opens or attempts to open any vault, safe, or other secure place
by any means, shall be punished by imprisonment for
a term of not less than three (3) nor more than twentyone (21) years upon conviction for a first offense, and
not less than five (5) years nor more than twenty-one
(21) years upon conviction for a second or subsequent
offense.
....
Tenn. Code Ann. § 39-3-404 (1982) (repealed) (additional
penalty provisions omitted). Section 39-3-404(a)(1) —the
“building provision”—criminalized the breaking and entering into a non-dwelling house, and § 39-3-404(b)(1)—
the “safecracking provision”—criminalized the opening or
attempted opening of a vault, safe, or other secure place
following a breaking and entering into a building.
In United States v. Caruthers, the Sixth Circuit addressed whether a defendant’s previous conviction under

38a
§ 39-3-404 qualified as a violent felony under the ACCA’s
enumerated-offenses clause. 458 F.3d 459, 475-76 (6th Cir.
2006). The court determined that § 39-3-404 is “nongeneric along the ‘building or structure’ dimension, as it permitted third-degree burglary convictions for unlawful entry into coin receptacles and the like.” Id. (citing Fox v.
State, 383 S.W.2d 25, 27 (Tenn. 1964)). To use current terminology, § 39-3-404 “criminaliz[ed] a broader swath of
conduct than” generic burglary. Descamps, 133 S. Ct. at
2281.
Having determined that § 39-3-404 is “nongeneric,”
the Caruthers court considered whether the defendant
“actually committed a generic burglary” as demonstrated
by the available Shepard documents for his § 39-3-404
conviction. Caruthers, 458 F.3d at 476 (quoting Taylor,
495 U.S. at 600). Because the defendant’s indictments
showed that “he was actually convicted of burglarizing
buildings, even though the statute permitted convictions
for burglary of non-buildings,” Caruthers held that the
defendant’s § 39-3-404 convictions were for “generic burglaries” and qualified as ACCA predicates. Id.
Caruthers was decided before Descamps, in which the
Supreme Court clarified that its “decisions authorize review of [Shepard] documents only when a statute defines
burglary not . . . overbroadly, but instead alternatively.”
Descamps, 133 S. Ct. at 2286.
Following Descamps and Mathis, Walker contends
that, not only is § 39-3-404 nongeneric or overbroad, as
held by Caruthers, but it is also “indivisible, because the
various locations where the offense can take place merely
provide different means of committing the same offense.”
(Cv. ECF No. 19 at 91 (citing Mathis, 136 S. Ct. at 2255).)
Walker argues that, because § 39-3-404 is both overbroad
and indivisible—the latter condition precluding any examination of Shepard documents—his § 39-3-404 conviction

39a
cannot qualify as an ACCA predicate. (Id.) The Government argues that § 39-3-404 is divisible because it contains
alternative elements, not means, and that the Court may
examine Shepard documents to determine which alternative elements formed the basis of Walker’s conviction.
(Cv. ECF No. 23 at 119.)
Section 39-3-404 as a whole is overbroad, as recognized by Caruthers. Nevertheless, § 39-3-404 is divisible.
Section 39-3-404 on its face reflects a divisible structure:
§ 39-3-404(a)(1) criminalized the burglarizing of buildings
other than dwellings, and § 39-3-404(b)(1) criminalized the
burglarizing of vaults, safes, etc. (otherwise known as
safecracking). Tennessee courts recognized that § 39-3404 criminalized multiple alternative offenses, not a single
offense that could be committed in multiple ways. E.g.,
Englett v. State, No. 01-C-019103CC00086, 1991 WL
255894, at *2 (Tenn. Crim. App. Dec. 5, 1991) (“As to the
burglary and safecracking charges, both of these offenses
were prohibited at that time by Tenn. Code Ann. § 39-3404.”).6 Offenses under §§ 39-3-404(a)(1) and (b)(1) also
carried different punishments. Tenn. Code. Ann. §§ 39-3404(a)(2)-(4), (b)(1)-(2). Both the text of § 39-3-404 and
Tennessee case law construing it exhibit Mathis’s hallmarks of divisibility. Mathis, 136 S. Ct. at 2256.
Although some Tennessee decisions treat the safecracking provision as a sentencing enhancement, see, e.g., State v. Lindsay, 637
S.W.2d 886, 890 (Tenn. Crim. App. 1982) (construing a substantially
similar prior version of § 39-3-404), that does not mean that § 39-3404 as a whole merely “enumerate[d] various factual means of committing a single element” such as a single “locational element,”
Mathis, 136 S. Ct. at 2249-50. Even if understood as a sentencing enhancement, the safecracking provision “provide[d] for greater punishment if the burglar open[ed] a vault, safe, or other secure place
after entry,” which assumed that a “burglarious entry” had already
occurred. Lindsay, 637 S.W.2d at 890. Section § 39-3-404(b)(1) criminalized distinct, additional conduct that § 39-3-404(a)(1) did not.
6

40a
Because § 39-3-404 is divisible, the Court may examine
Shepard documents to determine which of § 39-3-404’s alternative elements formed the basis of Walker’s prior conviction. See Descamps, 133 S. Ct. at 2283-84.
Walker’s Shepard documents demonstrate that he
was convicted under § 39-3-404(a)(1), the building provision, not under § 39-3-404(b)(1)’s safecracking provision.
In April 1985, a Tennessee grand jury charged that
Walker, on December 13, 1984, “did commit the offense of
burglary in the 3rd degree by unlawfully, feloniously and
burglariously breaking into and entering THE BUSINESS HOUSE OF MEN’S WORLD FASHIONS . . .
with intent unlawfully, feloniously and burglariously to
steal, take and carry away the personal property therein.”
(Cv. ECF No. 23-1 at 131-32.) Walker’s record of judgment shows that he pled guilty to this charged offense.
(Id. at 133.)
Having confirmed that Walker was convicted under
§ 39-3-404’s building provision, the Court must determine
whether a burglary offense under that provision, as a category, is a violent felony.7 See Covington, 738 F.3d at 763.
The Government contends that it is.
Although the Court may examine the Shepard documents for
Walker’s § 39-3-404 conviction to determine which of the statute’s alternative offenses formed the basis of that conviction, the Court may
not examine the Shepard documents to determine whether the factual
basis for that conviction amounts to generic burglary. Thus, the Court
may not conclude that Walker’s § 39-3-404(a)(1) offense qualifies as
an ACCA predicate because the indictment alleged that a building, in
fact, was burglarized. Sixth Circuit decisions have previously endorsed that kind of fact-based analysis. See, e.g., Caruthers, 458 F.3d
474-76 (analyzing a pre-1989 Tennessee third-degree burglary offense); Taylor, 800 F.3d at 719-720 (endorsing, in dicta, Caruthers’s
method of analysis of a pre-1989 Tennessee third-degree burglary offense). Mathis, however, rules out such a fact-based approach. See
136 S. Ct. at 2251 (“How a given defendant actually perpetrated the
7

41a
At the time of Walker’s conviction, a third-degree burglary conviction under § 39-3-404’s building provision required the state to prove four elements: “(1) the breach,
(2) the entry, (3) any house of another other than dwelling
house, and (4) felonious intent.” Petree v. State, 530
S.W.2d 90, 94 (Tenn. Crim. App. 1975); see also Duchac v.
State, 505 S.W.2d 237, 239 (Tenn. 1973) (same).8 The Sixth
Circuit has noted that, under § 39-3-404, the entry must
be unlawful. Caruthers, 458 F.3d at 475. In Taylor, the
Supreme Court defined generic burglary for purposes of
the ACCA’s enumerated-offenses clause as “any crime,
regardless of its exact definition or label, having the basic
elements of unlawful or unprivileged entry into, or remaining in, a building or structure, with intent to commit
a crime.” 495 U.S. at 599. By criminalizing the unlawful
entry into a non-dwelling “house” (i.e., a building or structure) with intent to commit a felony, the text of § 39-3404’s building provision appears to have criminalized conduct constituting an ACCA predicate under the enumerated-offenses clause.
Tennessee case law, however, shows that § 39-3-404’s
building provision is overbroad. In Fox, the Tennessee
crime—what we have referred to as the ‘underlying brute facts or
means’ of commission—makes no difference; even if his conduct fits
within the generic offense, the mismatch of elements saves the defendant from an ACCA sentence.” (citation omitted)); see also United
States v. Simmons, No. 3:13-cr-00066, at *6-7 (M.D. Tenn. July 21,
2016) (“While the Sixth Circuit in both Caruthers and Taylor looked
at the underlying charging documents to determine whether the defendant ‘actually committed a generic burglary’ Mathis now forecloses that approach.” (citation omitted)).
Petree and Duchac addressed Tennessee third-degree burglary
under previously styled Tenn. Code Ann. § 39-904, which, as discussed below, had identical language, in relevant respects, to Tenn.
Code Ann. § 39-3-404. See Petree, 530 S.W.2d at 94; Duchac, 505
S.W.2d at 239.
8

42a
Supreme Court addressed whether a third-degree burglary conviction could be sustained where a defendant
lawfully entered a public phone booth, but broke and
opened a coin receptacle inside the phone booth. 214
S.W.2d at 26-27. At the time, Tenn. Code Ann. § 39-904, a
predecessor version of § 39-3-404, provided: “Burglary in
the third degree is the breaking and entering into a business house, outhouse, or any other house of another, other
than dwelling-house, with the intent to commit a felony”
(“§ 39-904’s building provision”). Tenn. Code Ann. § 39904 (1955) (effective Jan. 1, 1956) (repealed). Section 39904 also provided: “Any person who, with intent to commit
crime, breaks and enters, either by day or by night, any
building, whether inhabited or not, and opens or attempts
to open any vault, safe, or other secure place by any
means, shall be punished . . . .” (“§ 39-904’s safecracking
provision”). See Public Acts of 1955, ch. 321, 1188.9 Fox
held that the “[d]efendants could lawfully enter the telephone booth, which is a business house within the meaning of Section 39-904, but by breaking into the money receptacle after lawful entry they would be guilty of burglary in the third degree.” 214 S.W.2d at 27.
Although § 39-904 included a safecracking provision,
Fox’s holding does not rely on or discuss it. Section 39904’s safecracking provision criminalized the opening or
Section 39-904’s safecracking provision does not appear in the
1955 edition of the Code. The 1955 edition of the Code was enacted on
February 2, 1955. Public Acts of 1955, ch. 6, 53-54. Section 39-904’s
safecracking provision was enacted on March 18, 1955. Public Acts of
1955, ch. 321, at 1188 (amending § 10913, a predecessor version of
§ 39-904 (see Tenn. Code Ann. at 909, 970 (2009) (showing that § 10913
of the 1932 Code became § 39-904 of the 1955 Code))). Section 39-904’s
safecracking provision took effect immediately upon its passage and
was incorporated into § 39-904 thereafter. See State ex rel. Wooten v.
Bomar, 352 S.W.2d 5, 5-6 (Tenn. 1961) (discussing the addition of
§ 39-904’s safecracking provision to § 39-904).
9

43a
attempted opening of “any vault, safe, or other secure
place” after first “break[ing] and enter[ing] . . . any building,” but the defendants in Fox had not broken and entered into the phone booth itself. Fox, 383 S.W.2d at 27.
In holding that the defendants’ conduct, opening a coin receptacle after having lawfully entered a public phone
booth, violated § 39-904’s building provision, Fox relied on
the reasoning of Page v. State, 98 S.W.2d 98 (Tenn. 1936).
Id.
In Page v. State, the Tennessee Supreme Court addressed whether a burglary conviction could be sustained
where the defendant was lawfully inside a “business
house,” but broke and entered into a room within the business house. 98 S.W.2d at 98-99. The Page defendants had
lawfully been inside a hotel, but broke into the hotel auditor’s office and stole personal property. Id. at 98. They
had not broken and entered into the hotel building itself.
Tennessee’s burglary statute applying to dwellings,
then § 10910, had a corresponding provision, § 10911, that
criminalized the breaking of the “premises, or any safe or
receptacle therein” even without a breaking into the
dwelling itself. See Tenn. Code Ann. §§ 10910-11 (1932)
(repealed).10 The court explained that one could be convicted of “technical burglary,” as defined in § 10910, “if,
though lawfully in a dwelling house in the first instance,
he breaks and enters into a room of such premises with
intent to commit a felony.” Page, 98 S.W.2d at 98-99. Although Tennessee’s burglary statute applicable to nonSection 10910 provided: “Burglary is the breaking and entering
into a dwelling house, by night, with intent to commit a felony.” Section 10911 provided: “Any person who, after having entered upon the
premises mentioned in the foregoing section, with intent to commit a
felony, shall break any such premises, or any safe or receptacle
therein, shall receive the same punishment as if he had broken into
the premises in the first instance.”
10

44a
dwellings, then § 10913, did not have a corresponding provision that criminalized the breaking of the “premises, or
any safe or receptacle therein” without a breaking into the
non-dwelling itself, see Tenn. Code Ann. §§ 10910-19,
Page concluded that, “[u]pon the same reasoning, one, although lawfully in a business house, commits the offense
described in section 10913 of the Code when he breaks and
enters into a room of that business house, which he has no
right to enter, for the purpose of committing a felony.” 98
S.W.2d at 99.
Just as Page applied § 10911, or its principle, to
§ 10913, Fox reasoned that “Section 39-902 [formerly,
§ 10911], or at least the same principle, applie[d] also to
Section 39-904.” Fox, 214 S.W.2d at 26-27. Fox concluded:
The holding in the Page case applies to the facts in this
case. Defendants could lawfully enter the telephone
booth, which is a business house within the meaning of
Section 39-904, but by breaking into the money receptacle after lawful entry they would be guilty of burglary in the third degree.
Id. at 27.
In Heald v. State, the Tennessee Court of Criminal
Appeals was asked to overrule Fox’s holding “that the fact
that a telephone booth was open to the public and hence
lawfully entered did not prevent one breaking into the
money receptacle from being guilty of third degree burglary.” 472 S.W.2d 242, 243 (Tenn. Crim. App. 1970).
Heald declined, opining, “We, being an intermediate appellate court, have no authority to overrule a clear and
controlling authority promulgated by our Supreme
Court.” Id.
By the time of Walker’s 1986 third-degree burglary
conviction, § 39-904’s building and safecracking provisions

45a
had been restyled as §§ 39-3-404(a)(1) and (b)(1) respectively. Although restyled, the offense-conduct language
remained the same. In Caruthers, the Sixth Circuit concluded that § 39-3-404 as a whole was overbroad or
“nongeneric” because “it permitted third-degree burglary
convictions for unlawful entry into coin receptacles and
the like.” 458 F.3d at 476 (citing Fox, 214 S.W.2d at 27).
Fox was a building-provision case, not a safecracking-provision case. Fox has never been overruled. Caruthers’s
holding that § 39-3-404 is overbroad because of Fox is
binding on the Court. Fox makes § 39-3-404(a)(1) overbroad.
In support of its position that § 39-3-404(a)(1) is not
overbroad post-Mathis, the Government cites Harvey v.
United States, Nos. 1:11-CR-43-CLC-SKL-1, 1:13-CV246-CLC (E.D. Tenn. Sept. 28, 2016). Harvey concluded
that a defendant’s convictions for third degree burglary
under § 39-904 and § 39-3-404 qualified as ACCA predicates where his PSR showed that his “convictions involved
breaking and entering into residences or businesses, not
‘vault[s], safe[s], or other secure place[s].’ ” Id. at *8-9 (alterations in original). Harvey did not address whether
§ 39-904 and § 39-3-404—specifically, those statutes’
building provisions—were overbroad because of Fox. See
also, e.g., Norwood v. United States, Nos. 3:04-CR-141TAV-HBG-1, 3:16-cv-601-TAV, 2016 WL 6892748, at *3
(E.D. Tenn. Nov. 22, 2016) (same). But see United States
v. Simmons, No. 3:13-cr-00066, at *6-7 (M.D. Tenn. July
21, 2016) (concluding that a conviction under § 39-3404(a)(1) does not qualify as an ACCA predicate following
Mathis).
Because § 39-3-404(a)(1) could be violated where the
“entry into, or remaining in, a building or structure” was
lawful, a § 39-3-404(a)(1) offense is broader than generic
burglary. Walker’s 1986 Tennessee conviction for third-

46a
degree burglary is no longer a violent felony under the
ACCA after Johnson.11
c. Texas Robbery Conviction

At the time of the offense conduct on which Walker’s
1982 robbery conviction was based, Texas Penal Code
§ 29.02 provided:
(a) A person commits an offense if, in the course of
committing theft as defined in Chapter 31 of this code
and with intent to obtain or maintain control of the
property, he:

Walker argues that § 39-3-404(a)(1) is overbroad for other reasons, but those arguments lack merit. He argues that Tennessee decisions have held that a “breaking” can consist of merely raising a
door latch or opening a shut door. (Cv. ECF No. 26 at 141.) Nothing
in Taylor’s definition of generic burglary requires a violent breaking.
Under Taylor, generic burglary is accomplished by means of an unlawful “entry into, or remaining in” a building or structure, which
requires no actual breaking at all. 495 U.S. at 599 (emphasis added).
Walker also argues that Tennessee decisions have held that third-degree burglary can be committed when one merely breaks and enters
a room within a building even though the initial entry into the building
did not require a breaking. (Cv. ECF No. 26 at 142.) In United States
v. Jones, the Sixth Circuit held that an offense under Tennessee’s pre1989 second-degree burglary statute is categorically a violent felony
under the ACCA even though that statute applied to both buildings
and rooms within buildings. 673 F.3d 497, 505 (6th Cir. 2012).
Walker also argues that it is unclear whether, under Tennessee
law, the unlawful entry and felonious intent had to occur simultaneously, which Walker argues is required under Taylor’s definition of
generic burglary. (Cv. ECF No. 26 at 142.) In affirming defendants’
convictions for third-degree burglary, Tennessee appellate courts
have routinely explained that those convictions could be affirmed because, inter alia, the unlawful entry and felonious intent had occurred
simultaneously. E.g., Duchac, 505 S.W.2d at 240; Hindman v. State,
384 S.W.2d 18, 20 (Tenn. 1964); Petree v. State, 530 S.W.2d at 94.
11

47a
(1) intentionally, knowingly, or recklessly causes bodily injury to another; or
(2) intentionally or knowingly threatens or places another in fear of imminent bodily injury or death.
Tex. Penal Code § 29.02 (1974). The Texas Penal Code further provided, “ ‘In the course of committing theft’ means
conduct that occurs in an attempt to commit, during the
commission, or in immediate flight after the attempt or
commission of theft.” Tex. Penal Code § 29.01.12 Robbery
is not a felony listed in the ACCA’s enumerated-offenses
clause. See 18 U.S.C. § 924(e)(2)(B)(ii). The Sixth Circuit
has not addressed whether a conviction under § 29.02
qualifies as a violent felony under the ACCA’s use-offorce clause.
Section 29.02 is a divisible statute that criminalizes
separate crimes: (a) robbery with bodily injury, and (b)
robbery by threats or fear. E.g., Walton v. State, 575
S.W.2d 25, 25 n.1 (Tex. Crim. App. 1978) (reciting the elements for each offense). Section 29.02 as a whole is overbroad because it authorizes convictions based on reckless
conduct. See Tex. Penal Code § 29.02(a)(1). In McMurray,
the Sixth Circuit “conclude[d] that the ‘use of physical
force’ clause of the ACCA, § 924(e)(2)(B)(i), requires more
than reckless conduct.” 653 F.3d at 375.
The Government argues that, because § 29.02 “is divisible on its face,” distinguishing between § 29.02(a)(1)’s
and (a)(2)’s respective robbery offenses, the “Court may
use the modified categorical approach in order to determine which elements formed the basis of Walker’s conviction.” (Cv. ECF No. 23 at 122.) The Government notes
that a Texas grand jury charged that Walker, on September 21, 1981, “while in the course of committing theft and
12

Sections 29.01 and 29.02 remain unchanged in relevant respects.

48a
with intent to obtain and maintain control of the property”
of his victim, “did then and there knowingly and intentionally cause bodily injury” to the victim “by pushing [him]
to the ground.” (Cv. ECF No. 23-3 at 134.) Walker’s record of judgment shows that he pled guilty to this charged
offense. (Cv. ECF No. 23-4 at 135.) The Government contends (1) that Walker’s Shepard documents confirm that
Walker was convicted under § 29.02(a)(1) for robbery with
bodily injury and (2) that a § 29.02(a)(1) offense is categorically a violent felony under the ACCA’s use-of-force
clause. (Cv. ECF No. 23 at 123-24.) The Government argues that McMurray has no bearing on Walker’s conviction because Walker’s indictment shows that Walker was
convicted of “knowing[] and intentional[]” robbery, not
robbery committed recklessly.13 (Id. at 128.)
The Court may examine Walker’s Shepard documents
to determine under which of § 29.02(a)’s provisions
Walker was convicted because the statute and Texas decisional law define robbery in terms of two alternative offenses. To that end, Walker’s Shepard documents confirm

The Government does not explicitly argue, but nevertheless suggests, that McMurray has been undermined by Voisine v. United
States, 136 S. Ct. 2272 (2016). (Cv. ECF No. 23 at 125-27.) The Government states that recent Supreme Court authority, including
Voisine, “makes clear . . . that the intentional, knowing, or reckless
causation of bodily injury necessarily involves the use of force.” (Id.
at 125.) Voisine addressed whether 18 U.S.C. § 922(g)(9), which
makes it a crime for anyone who has been convicted of a “misdemeanor crime of domestic violence” to possess a firearm, extends to
misdemeanor assault convictions based on reckless conduct. 136 S.
Ct. at 2276. Voisine held that it does. Id. at 2282. Courts in this Circuit, however, have rejected the argument that Voisine has undermined McMurray’s holding that crimes committed recklessly cannot
qualify as ACCA predicates under the ACCA’s use-of-force clause.
E.g., United States v. Wehunt, ___ F. Supp. 3d ___, No. 1:16-cr-17-1,
2017 WL 347544, at *2 (E.D. Tenn. Jan. 24, 2017).
13

49a
that he was convicted under § 29.02(a)(1) for robbery with
bodily injury.
The Court may examine Shepard documents to rule
out that Walker’s conviction was based on reckless conduct only if § 29.02(a)(1), which criminalizes “intentionally, knowingly, or recklessly caus[ing] bodily injury to
another,” lists alternative mental state elements rather
than alternative means of satisfying a single mental state
element. If “means, the court has no call to decide which
of the statutory alternatives was at issue in the earlier
prosecution.” Mathis, 136 S. Ct. at 2256.14 The Government cites no authority that “intentionally, knowingly, or
recklessly” lists alternative elements rather than means
under § 29.02(a)(1) or that the Court may treat those mental state terms within § 29.02(a)(1) as alternative elements
simply because § 29.02(a)(1) is divisible from § 29.02(a)(2).
Under Texas law, the elements of robbery with bodily
injury under § 29.02(a)(1) are: “(1) a person (2) in the
course of committing theft (3) with intent to obtain or
maintain control of property (4) intentionally, knowingly
or recklessly (5) causes bodily injury to another.” Walton,
575 S.W.2d at 25 n.1 (quotation marks omitted). The
fourth element—“intentionally, knowingly or recklessly”—is the culpable mental state element for the fifth
element. See Ex parte Santella, 606 S.W.2d 331, 331-33
(Tex. Crim. App. 1980) (en banc) (discussing § 29.02 elements as included elements of an aggravated robbery offense).
In Landrian v. State, the Texas Court of Criminal Appeals discussed Texas’s assault statute (to which Mathis
Mathis noted the possibility that a statute which criminalizes “intentionally, knowingly, or recklessly” committing a prohibited act
may list “interchangeable means of satisfying a single mens rea element.” 136 S. Ct. at 2253 n.3 (discussing Texas’s assault statute, Tex.
Penal Code § 22.01(a)(1)).
14

50a
alluded) in reviewing a Texas aggravated assault conviction. 268 S.W.3d 532 (Tex. Crim. App. 2008). Under Texas
law, a person commits assault if that person “intentionally, knowingly, or recklessly causes bodily injury to another” or “intentionally or knowingly threatens another
with imminent bodily injury.” Tex. Penal Code
§ 22.01(a)(1)-(2).15 A person commits aggravated assault
where that person commits assault and engages in conduct that qualifies as one of two statutory aggravating factors. See Tex. Penal Code § 22.02(a); Landrian, 268
S.W.3d at 536-37. In Landrian, the court addressed
whether the trial court erred in instructing the jury on defendant’s aggravated assault charge where the jury instructions, inter alia, did not require the jury to unanimously agree as to whether the defendant had caused
bodily injury “intentionally or knowingly” or “recklessly.”
268 S.W.3d at 534 & n.5.
Landrian explained that, under Texas law, although a
“jury must agree that the defendant committed one specific crime,” a jury is not required to “unanimously find
that the defendant committed that crime in one specific
way.” Id. at 535. It noted that “[t]he gravamen of the offense of aggravated assault is the specific type of assault
defined in Section 22.01,” and “the actus reus for ‘bodily
injury’ aggravated assault is ‘causing bodily injury.’ ” Id.
at 537. Landrian noted that, under the assault statute’s
bodily-injury provision, “any of three culpable mental
states suffices: intentionally, knowingly, or recklessly
causing bodily injury.” Id. Addressing the legal significance of those mental states, the court explained:
The legislature was apparently neutral about which of
these three mental states accompanied the forbidden
A third form of assault is offensive or provocative contact. See
Tex. Penal Code § 22.01(a)(3).
15

51a
conduct because all three culpable mental states are
listed together in a single phrase within a single subsection of the statute. There is no indication that the
legislature intended for an “intentional” bodily injury
assault to be a separate crime from a “knowing” bodily
injury assault or that both of those differ from a “reckless” bodily injury assault. All three culpable mental
states are strung together in a single phrase within a
single subsection of the statute. All result in the same
punishment. They are conceptually equivalent.
Id. The court noted that Texas courts traditionally had not
required jury unanimity on mental state where multiple
mental states were applicable:
Because the Penal Code explicitly states that proof of
a greater culpability is also proof of any lesser culpability, it would not matter, for example, if six members
of a jury found that the defendant intentionally killed
his victim and six members found that he had knowingly killed his victim.
Id. The court reasoned that “[t]he same is true with ‘bodily injury’ assault.” Id. at 537-38.
Following Mathis, in Gomez-Perez v. Lynch, the Fifth
Circuit cited Landrian and concluded that the clause “intentionally, knowingly, or recklessly” as used in Texas’s
assault statute lists alternative mental state means, not
elements. 829 F.3d 323, 325 (5th Cir. 2016). The court explained: “Texas law has definitively answered the ‘means
or elements’ question: the three culpable mental states in
section 22.01(a)(1) are ‘conceptually equivalent’ means of
satisfying the intent element, so jury unanimity as to a
particular one is not required.” Id. at 328 (citing Landrian, 268 S.W.3d at 537).
Although Mathis, Landrian, and Gomez-Perez addressed Texas’s assault statute, those authorities strongly

52a
suggest that the “intentionally, knowingly, or recklessly”
clause in Texas’s robbery statute likewise lists alternative
means, not elements, of satisfying the culpable mental
state element for robbery with bodily injury. Like
§ 22.01(a)(1), § 29.02(a)(1) provides that a person commits
an offense who “intentionally, knowingly, or recklessly
causes bodily injury to another.” Tex. Penal Code
§§ 22.01(a)(1), 29.02(a)(1). As in its assault counterpart, in
§ 29.02(a)(1), “all three culpable mental states are listed
together in a single phrase within a single subsection of
the statute.” Landrian, 268 S.W.3d at 537. Like its assault
counterpart, “[a]ll” of § 29.02(a)(1)’s mental states “result
in the same punishment.” Id.; see Tex. Penal Code
§ 29.02(b) (making any offense under § 29.02 a second degree felony); cf. Mathis, 136 S. Ct. at 2256 (“If statutory
alternatives carry different punishments, . . . they must be
elements.”). Landrian did not limit its discussion or analysis of alternate mental state terms to Texas assault. Although decided after Walker’s 1982 robbery conviction,
Landrian did not purport to announce a new rule governing mental state elements for criminal offenses. Mathis,
Landrian, and Gomez-Perez preclude examination of
Walker’s Shepard documents to rule out that his robbery
conviction was based on reckless conduct.
The parties disagree about whether § 29.02(a)(1) is
overbroad for other reasons. The Court need not decide
those issues. Because a § 29.02(a)(1) conviction could be
based on reckless conduct and § 29.02(a)(1)’s mental state
element is indivisible, Walker’s 1982 Texas conviction for
robbery is no longer a violent felony under the ACCA after Johnson.
4. Johnson Relief
Because Walker no longer has at least three ACCApredicate offenses after Johnson, he no longer qualifies as

53a
an armed career criminal under the ACCA. Walker is entitled to be relief under Johnson. On this ground only, the
§ 2255 Motion is GRANTED.
IV. CONCLUSION

For the foregoing reasons, the § 2255 Motion is
GRANTED in part and DENIED in part. The § 2255 Motion is GRANTED on the basis of Walker’s Johnson challenge. Because Walker is entitled to relief under Johnson,
the judgment in Criminal Case No. 07-20243 is VACATED, and the matter will be set for resentencing. The
Probation Office is directed to prepare a Supplemental
Presentence Investigation Report. The parties may file
position papers once the Report has been prepared. The
§ 2255 Motion is DENIED on all other grounds.
This order is an “order granting a future resentencing” and “does not complete the § 2255 proceeding[s].”
United States v. Hadden, 475 F.3d 652, 662 (4th Cir.
2007). Upon resentencing and entry of a new judgment in
Criminal Case No. 07-20243, the Court will enter judgment in these § 2255 proceedings. See generally id. at 659666 (discussing appealability of orders in § 2255 proceedings granting in part and denying in part the § 2255 motion); Ajan v. United States, 731 F.3d 629, 631-32 (6th Cir.
2013) (citing Hadden approvingly).
So ordered this 20th day of April, 2017.

54a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No. 17-5782

JAMES WALKER,
Petitioner-Appellee
v.
UNITED STATES OF AMERICA,
Respondent-Appellant

No. 17-5783

UNITED STATES OF AMERICA,
Plaintiff-Appellant
v.
JAMES WALKER,
Defendant-Appellee

Filed: July 23, 2019

55a
Before: ROGERS, STRANCH, and THAPAR, Circuit
Judges.
The panel issued an order denying the petition for rehearing en banc. KETHLEDGE, J., delivered a separate
opinion dissenting from the denial of rehearing en banc,
in which MOORE, STRANCH, and WHITE, JJ., joined.
STRANCH, J., delivered a separate dissenting opinion, in
which MOORE, J., joined.
ORDER
PER CURIAM.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition and concludes that the issues raised in the petition were fully considered upon the original submission and decision. The petition was then circulated to the full court.1 Less than a
majority of the judges voted in favor of rehearing en banc.
Therefore, the petition is denied.
KETHLEDGE, Circuit Judge, dissenting from the denial
of rehearing en banc.
Sometimes we should correct our own mistakes. The
question here is whether a defendant “use[s] . . . physical
force against the person of another”—as that phrase is
used in 18 U.S.C. § 924(e)(2)(B)(i) and various other provisions of the criminal code, as well as in the Sentencing
Guidelines—when the defendant is indifferent (which is to

1

Judge Donald recused herself from participation in this decision.

56a
say reckless) as to whether his force in fact applies to another person. Prior to 2016, the circuit courts uniformly
answered no—that crimes involving the reckless use of
force are not violent felonies (or, depending on the provision, crimes of violence) as defined by these provisions.
See United States v. Harper, 875 F.3d 329, 332 (6th Cir.
2017) (collecting cases). In 2016, however, the Supreme
Court decided Voisine v. United States, 136 S.Ct. 2272,
(2016), which interpreted an altogether different provision, namely the definition of “misdemeanor crime of domestic violence” as defined in 18 U.S.C. § 921(a)(33)(A).
That provision, unlike the one here, requires only a “use
. . . of physical force” period, rather than a use of force
“against the person of another.” The Court in Voisine expressly limited its inquiry to the meaning of a single word
in § 921(a)(33)(A)(ii)—“use”—which the Court interpreted to require a “volitional” application of force, as opposed to an accidental one. 136 S.Ct. at 2279. And the
Court reasoned that, so long as the defendant’s application of force is volitional, the word “use” is “indifferent as
to whether the actor has the mental state of intention,
knowledge, or recklessness with respect to the harmful
consequences of his volitional conduct.” Id. Thus, the
Court held, crimes in which the defendant employs force
recklessly may satisfy the “use of force” element of
§ 921(a)(33)(A)(ii). See id. at 2276.
Several courts have since extended Voisine to abrogate the pre-2016 consensus and hold that crimes involving the reckless use of force are violent felonies or crimes
of violence as defined by § 924(e)(2)(B)(i) and its various
counterparts. Unlike the provision at issue in Voisine,
however, § 924(e)(2)(B)(i) does require the “use . . . of
physical force against the person of another.” That difference in text yields a difference in meaning. As a unani-

57a
mous panel of our court explained in Harper: “The italicized language is a restrictive phrase that describes the
particular type of ‘use of physical force’ necessary to satisfy [U.S.S.G. § 4B1.2, which is a Guidelines counterpart
of § 924(e)(2)(B)(i)]. Specifically, § 4B1.2 requires not
merely a volitional application of force, but a volitional application ‘against the person of another.’ ” 875 F.3d at 331
(citation omitted). And that means “the force’s application
to another person must be volitional or deliberate.” Id.
Thus, “understood the way the English language is ordinarily understood,” the phrase “use . . . of physical force
against the person of another” requires “not merely recklessness as to the consequences of one’s force, but
knowledge or intent that the force apply to another person.” See id. at 331-32.
Yet the law as described in Harper is not the law of
our circuit, because by chance a conflicting decision,
namely United States v. Verwiebe, 872 F.3d 408 (6th Cir.),
amended, 874 F.3d 258 (6th Cir. 2017), was published days
before Harper was. Verwiebe asserted that § 4B1.2(a)
“define[s] crimes of violence nearly identically to [18
U.S.C.] § 921(a)(33)(A)(ii)”—which was the provision at issue in Voisine. See Verwiebe, 874 F.3d at 262; see also
United States v. Haight, 892 F.3d 1271, 1281 (D.C. Cir.
2018) (likewise characterizing these provisions as “nearly
identical”). Respectfully, however, that assertion was mistaken, because § 4B1.2—unlike § 921(a)(33)(A)(ii)—requires the use of physical force “against the person of another.” In the work of textual exegesis, the presence of a
restrictive phrase in one provision but not another does
not leave them nearly identical. And from that mistaken
premise Verwiebe mistakenly held that § 4B1.2 requires
only recklessness as to whether the defendant’s force
would apply to the person of another. See Verwiebe, 874
F.3d at 264.

58a
In fairness, though, Verwiebe followed a trail already
blazed by three other circuits. But none of the cases on
which Verwiebe relied—namely United States v. Pam,
867 F.3d 1191, 1207-08 (10th Cir. 2017); United States v.
Mendez-Henriquez, 847 F.3d 214, 221-22 (5th Cir. 2017);
and United States v. Fogg, 836 F.3d 951, 956 (8th Cir.
2016)—even acknowledged, much less addressed, the possibility that the restrictive phrase “against the person of
another” could affect the mens rea required by § 4B1.2(a)
and its various counterparts. Those cases therefore do not
represent a reasoned consensus as to what that phrase
means. Indeed they do not even purport to explain what it
means. Instead they illustrate a dynamic that sometimes
arises in the lower courts: “Loose language in one case
hardens into a holding in another, and other cases follow
suit. Eventually the caselaw takes on a life of its own, often lived at variance with the rules laid down in the statute
itself.” DeLuca v. Blue Cross Blue Shield of Michigan,
628 F.3d 743, 752 (6th Cir. 2010) (dissenting opinion).
We should have reheard this case. The issue here recurs frequently and typically doubles a defendant’s sentence; and the opinion that bound us in Harper is seriously
open to question. Moreover, any concerns about our ability to apply the rule in Harper are belied by the fact that,
pre-Voisine, the lower courts had uniformly applied that
same rule for more than a decade. Nor is there any merit
to the assertion that §§ 921(a)(33)(A)(ii) and 924(e)(2)
(B)(i) require the same mens rea (which, per Voisine,
would be recklessness) because § 921(a)(33)(A)(ii) requires a “victim.” That requirement, the argument goes,
serves as the equivalent of the phrase “against the person
of another” as used in § 924(e)(2)(B)(i). But again this is
rough-cut textualism. True, the definition of “misdemeanor crime of domestic violence” in § 921(a)(33)(A)(ii)
requires that there be a domestic “victim” in addition to a

59a
“use of physical force[.]” Hence that provision implicitly
requires that the defendant’s “use of physical force” in
fact harm another person. But there are legions of victims
harmed by force applied recklessly. And nothing in the
text of § 921(a)(33)(A)(ii) requires that the defendant act
knowingly or intentionally with respect to that harm.
Meanwhile, as shown above, § 924(e)(2)(B)(i) does include
language to that effect: “against the person of another.”
Finally, though the decision whether to rehear a case en
banc depends primarily on jurisprudential concerns, it
bears mention that—by our inaction—we send back to
prison, quite wrongly in my view, a 65-year-old man whose
crime was possession of a dozen bullets and who had already served the sentence (88 months) that the district
court thought sufficient.
“In sum, Voisine tells us what ‘use’ means, not what
‘against the person of another’ means.” Harper, 875 F.3d
at 333; see also Voisine, 136 S.Ct. at 2278 (observing that
“ ‘use[,]’ ” in that case, “is the only statutory language either party thinks relevant” in § 921(a)(33)(A)(ii)). That
phrase on its face restricts the scope of one of the more
important definitions in all of federal criminal law. Indeed
the Supreme Court has said that “[t]he critical aspect” of
the text at issue here “is that a crime of violence is one
involving the ‘use . . . of physical force against the person
or property of another.’ ” Leocal v. Ashcroft, 543 U.S. 1, 9
(2004) (emphasis and ellipses in original). Yet our court
has chosen to read that phrase—that “critical aspect”—to
mean precisely nothing. And by denying rehearing we
have rendered more intractable what has become a deep
circuit split.
I respectfully dissent from the denial of rehearing en
banc.

60a
STRANCH, Circuit Judge, dissenting from the denial of
rehearing en banc.
I join fully in Judge Kethledge’s dissent from the denial of rehearing en banc. And while I recognize that our
change of sides would not resolve the existing circuit split,
I believe our newly constituted court would have found
value in seeking to answer this question together and
would have provided value in speaking to the defendants
and families impacted by our decision.
I write separately because there is another reason we
should take up the question of whether crimes that have a
mens rea of recklessness necessarily involve the “use . . .
of physical force against the person of another,” as required by the ACCA’s use-of-force clause. 18 U.S.C.
§ 924(e)(2)(B)(i). The Supreme Court has explicitly left
open the possibility that the term “use of physical force”
should be given “divergent readings” in § 921(a)(33)(A)
and the ACCA “in light of differences in [the statutes’]
contexts and purposes.” Voisine v. United States, 136 S.
Ct. 2272, 2280 n.4 (2016). Though § 921(a)(33)(A) deals
with misdemeanor crimes of domestic violence, the
ACCA’s scope is restricted to violent felonies. And the
Court found that the “common-law meaning of force” is a
“comical misfit” with the “ACCA’s definition of a violent
felony,” yet concluded that the “common-law meaning of
force fits perfectly” in the context of misdemeanor crimes
of domestic violence. United States v. Castleman, 572 U.S.
157, 163 (2014) (citation and internal quotation marks
omitted). Indeed, the Court noted that “[t]he very reasons
we gave for rejecting that meaning in defining a ‘violent
felony’ are reasons to embrace it in defining a ‘misdemeanor crime of domestic violence.’ ” Id.; see also id. at
164-65 (discussing § 921(a)(33)(A)’s context and purpose).
Analysis of this issue thus also should include recognition

61a
that the statutes’ divergent “contexts and purposes” provide a substantial basis to conclude that the ACCA’s requirement of the use of physical force against the person
of another is more stringent than § 921(a)(33)(A)’s requirement of the use of physical force period.

